No.

IN THE
SUPREME COURT OF THE UNITED STATES

supreme Court, U.S.
FILED

NOV 3 0 2020
OFFICE OF THE CLERK

OJA\a rf

t ^

— PETITIONER

(Your Name)

vs.
&Lh~-

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

GXKV&xft-Ajlffokis_____________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

k%ig At/^; $
(Address)

L&Ccocoa ,CA c('>%Xv-~9;'%og
(City, State, Zip Code)

(erscy)
(Phone Number)

RECEIVED
DEC 1 8 2020

S&lilsSMSIl

QUESTION PRESENTED
Benjamin Brownlee was accused of strangling a fellow DOCCS inmate with
a seatbelt while the two of them were being driven between prisons. That inmate and
the two correction officers in the van were the only witnesses at his trial, which
began more than 18 months after the incident, and more than a year after indictment.
Five days before trial, the prosecutor gave Mr. Brownlee’s attorney a medical
report describing the absence of observable injury to the inmate-complainant; she
turned over color photographs depicting the absence of injury midway through her
case-in-chief. Defense counsel complained that these late disclosures were Brady
violations that impaired his ability to defend his client, and asked that the indictment
be dismissed. The trial court denied that request. A jury acquitted Mr. Brownlee of
both counts charged in the indictment, but convicted him of a lesser included offense.
He now appeals.
The question presented is: Did the prosecution violate its duties under Brady
v Maryland (373 US 83 [1963]) and its progeny by withholding the complainant’s
medical records until shortly before trial?
The trial court did not expressly rule that the late disclosure of the records was
a Brady violation, though it offered defense counsel a remedy short of dismissal of
the indictment, which counsel ultimately declined.

1

LIST OF PARTIES

O'] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Cfohl

finztyVtHeryicfal 2>~n us go m&D
PxXgrifajg
<fcrZ-ct 1^3 i *2-33 (£060
K^jkJb VA UJU^di^ S(ty U 5 {jc[e(p

oilcMleP M, unvKiSWO, 5/^ (A 5 m 0 W)
v/. (Wta m Mill m izviO
fe»f>fc- vJTCnw*
Z-LS‘55 CRaa)
v/1 ftT*-/ 2* NYU tl+tWS)
Qxriwdl; IttJlUqpUi, a<Wl)
(W V» c.oi+i)oTo NY Zi WOW

Oeojrte, V' Orzylfft! rTOitov fcxp
Pcofk. v
to^cvA

, n- aihsl &**>
x-i ^ s£ Mreww)

ifcdf IcVe thotS/ i

P«afi=- \/- Atef / I f A/Y-SA l

fS*5 Cfc>/5>

TABLE OF CONTENTS

f.

\

I

TABLE OF AUTHORITIES

11

QUESTION PRESENTED

1

PRELIMINARY STATEMENT

2

STATEMENT OF FACTS

3

A.

Discovery and Brady issues addressed prior to trial

3

B.

Brady developments during trial

6

1. The court’s proposed remedy for the missing photographs

10

2. The court’s proposed remedy for the late-disclosed medical records

11

3. The photographs are located; defense counsel declines the remedy
offered for the late-disclosed records..................................................

13
15

ARGUMENT
Point I: The prosecution violated its Brady obligations by failing to turn
over medical records describing the absence of injury to Brandon
Short until shortly before trial...........................................................

15

A.

The records were favorable to the defense.

17

B.

The records were suppressed.

19

C.

There is a reasonable possibility that Mr. Brownlee would have
won a complete acquittal if the records had been turned over in
time for his attorney to make effective use of them.........................

23

The conviction should be reversed and the indictment dismissed.

26

D.

30

CONCLUSION

l

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

■2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

If

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

I^Tfd1 For or-firfpmcfrlr

APPENDIX B

Xx\e!r par

APPENDIX C

Afpclfa&vfL$ct)A jfoiAH-U

Qzj)arhMsu)t H-Mc/r^rduH

ck/\^ or<krAPPENDIX D P^l\SS^
crfjhd fa-Bto CaArf<^ fyf}*U[

APPENDIX E Cwjirc)F
APPENDIX F

Or<kr Peoy^ 4,-eave.

TABLE OF AUTHORITIES
CASES
Brady v Maryland,
373 US 83 (1963)

1,4, 15

Fuentes v Griffin,
829 F3d 233 (2d Cir 2016)

23, 26

Kyles v Whitley,
514 US 419 (1995)

4, 20

Old Chief v United States,
519 US 172(1997).

28

People v Barto,
144 AD3d 1641 (4th Dept 2016)

19

People v Brown,
67 NY2d 555 (1986)

21-22

People v Bryce,
88 NY2d 124(1996)

21

People v Cardwell,
78 NY2d 996(1991)

28-29

People v Cortijo,
70 NY2d 868 (1987)

23

People v Dreyden,
15 NY3d 100 (2010)

29

People v Fuentes,
12 NY3d 259 (2009)

15,23-24

People v Garrett,
23 NY3d 878 (2014)

17, 19-20, 23-24

li

People v Hines,
132 AD3d 1385 (4th Dept 2015)

23

'People v Hunter,
11 NY3d 1 (2008)

26

People v Jenkins,
98 NY2d 280 (2002)

27

People v Oddone,
22 NY3d 369 (2013)

19

People v Santorelli,
95 NY2d 412 (2000)

20, 22

People v Scott,
88 NY2d 888(1996)

.25

People v Simmons,
36 NY2d 126(1975)

21

People v Vilardi,
76 NY2d 67(1990)

.24-25

People v Williams,
7 NY3d 15 (2006)

27

People v Wright,
86 NY2d 591 (1995)

4, 19,21

Strickler v Greene,
527 US 263 (1999)

15,23

United States v Bagley,
473 US 667 (1985)

24

United States v Santana-Dones,
920 F3d 70 (1st Cir 2019)

!

18 n *

m

STATUTES
CPL 460.50

2

Penal Law § 120.05

3

Penal Law § 121.11

2, 14

Penal Law § 121.12

3

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
M For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix &
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the
appears at Appendix_C__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[yf is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[v^For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix S[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

.

PRELIMINARY STATEMENT
Benjamin Brownlee appeals from the June 3, 2015 judgment of the Monroe
County Court (Christopher S. Ciaccio, Judge), convicting and sentencing him, after
a jury verdict, on one count of criminal obstruction of breathing or blood circulation
(Penal Law § 121.11 [a]). Mr. Brownlee was sentenced principally to one year in
jail—time served, in effect, as he had spent nearly a year in custody awaiting trial.
No application for a stay of execution of this judgment pending appeal was
made, nor was any order issued pursuant to CPL 460.50. There were no co­
defendants.

#

2

it

STATEMENT OF FACTS
On the afternoon of November 12, 2013, two New York State correction
officers were assigned to drive two inmates from Wende Correctional Facility, near
Buffalo, to Marcv Correctional Facility, near Utica. The trip was interrupted by a
disturbance in the back of the DOCCS van as it passed through Monroe County on
!

I*

the Thruway. According to the correction officers, one of the inmates, Benjamin
Brownlee, strangled the other, Brandon Short, with a seatbelt until Short became
unconscious. Officer Janine Samson, who was driving, pulled over; her partner, John
Buczek, entered the rear compartment, fought with and restrained Mr. Brownlee;
and the van continued its trip east. At the direction of their superiors, the officers
detoured to Auburn Correctional Facility, where Mr. Brownlee, inmate Short, and
Officer Buczek were examined for injuries and photographed. The two officers
eventually drove Short the rest of the way back to Marcy, leaving Mr. Brownlee at
Auburn.
A.

Discovery and Brady Issues Addressed Prior to Trial
Six months later, Mr. Brownlee was indicted on one count each of assault in

the second degree (Penal Law § 120.05 [3]), for causing injury to Officer Buczek,
and strangulation in the second degree (Penal Law § 121.12), for strangling Short.
He filed pre-trial motions seeking a bill of particulars, discovery, and Brady material,
among other relief. The particulars sought included “[a] detailed description of the
3

physical injury allegedly caused by the Defendant” and specification of which result
constituting strangulation in the second degree—stupor, loss of consciousness,
physical injury, or physical impairment—Mr. Brownlee was alleged to have caused
!'

to inmate Short (Appendix [“A”] 23). The discovery demand requested production
of, among other items:
“[a]ny photograph . . . relating to the criminal action or proceeding
which was made or completed by a public servant engaged in law
enforcement activity” (A 24);
“[a] 11 photographs . . . used or made during the course of the
investigation underlying the charges contained in the Indictment, for
whatever purpose” (A 25); and
“[a]ny and all documents, reports, notes, memoranda, or synopses
detailing, in any fashion, the results of any physical or mental
examination of the defendant... or any prospective witness” (A 29).
The motion also asserted Mr. Brownlee’s right to discovery of favorable
evidence under Brady v Maryland (373 US 83 [1963]) and its state and federal
progeny (A 34-40), citing to cases holding that “[t]he mandate of Brady extends
beyond any particular prosecutor’s actual knowledge - an individual prosecutor has
a duty to learn of any favorable evidence known to others acting on the government’s
behalf in the case, including the police” (A 39; see People v Wright, 86 NY2d 591,
598 [1995]; Kyles v Whitley, 514 US 419, 437 [1995]).
The prosecutor responded to the demand for a bill of particulars by specifying
that Mr. Brownlee “is alleged to have choked Brandon Short to the point of
4

unconsciousness or stupor” (A 55), but she did not expressly disclaim physical injury
or impairment as a basis for the strangulation charge. Instead, this portion of Mr.
Brownlee’s demand, and his request for “[a] detailed description of the physical
injury allegedly caused,” were “[rjefused as beyond the scope of a bill of particulars”
(A 55).
The prosecutor’s response to the discovery demand read in its entirety:
“To date, the People have provided all discoverable material in their
possession pursuant to Article 240 of the CPL. The People are aware
of, and will comply with, their continuing duty to disclose under this
Article. To the extent that there may be photographs, video or audio
tapes, property, or other evidence in this case in the custody of the
arresting or investigating agency, the People are available, upon the
defendant’s request, to meet at a mutually convenient time and place to
view or inspect such evidence. All other requests are refused as beyond
the scope of discovery provided in Article 240.”
(A 55-56.) Her response to Mr. Brownlee’s Brady demand was that she “is presently
unaware of any such Brady material” (A 58).
At a proceeding held just after the prosecution had filed this response, the
court asked Mr. Brownlee’s attorney whether any discovery issues required its
attention. Counsel acknowledged that “some documents have been provided” but
speculated that certain other documents, pertaining to DOCCS “administrative
proceedings,” existed but had not been provided (9/17/2014 Tr at 4 [“I know that
there were some certain determinations that were made as a result of this alleged
incident and I don’t have anything from those.”]). Counsel made clear that he was
5

/

l

not alleging “any willful failure to produce those” documents on the prosecutor’s
part; rather, he believed that he “may need a subpoena because DOCCS may not turn
over voluntarily” (id). The prosecutor did not participate in this discussion. At the
next appearance, seven weeks later, County Court scheduled trial for June 1,2015—
eight and a half months after the September 17 discovery discussion (11/5/2014 Tr
at 4).
B.

Brady Developments During Trial
On June 1, as the parties were about to begin jury selection, Mr. Brownlee’s

attorney told the court that the prosecutor had turned over “a fairly sizable chunk of
documents late in the week last week,” and that in reviewing them, he had learned
for the first time of the existence of “photographs which were actually taken on the
day of the offense” (6/1-6/3/2015 Tr [“T”] at 9). Upon his further request, the
prosecutor had obtained and provided “photocopies” of these photographs that “are
basically unusable” (T 9); the prosecutor agreed that they were “black and white and
grainy” (Til). Defense counsel argued that if the original-quality photographs could
not quickly be located, “there is a material issue in terms of our ability to go forward
... because again they are material to the allegations in this case” (T 9).
The prosecutor responded that “the material that was provided to counsel
Wednesday of last week was all, to the best of my knowledge, Rosario material
except for these photographs which, as he indicated, were not in any of the original
6

police packages. So, I did not know they existed until the middle of last week”
(T 10). After receiving defense counsel’s emailed request for the originals on
Saturday, she had assigned an investigator “to spend today tracking [them] down”
(T 10). The court asked her whether the defense had received “[mjedical records”
and she answered, “No medical records for his client. There was no medical
treatment provided” (T 11). The court then asked: “To the victims?” and the
prosecutor answered, “Correct. He does have the medical records of Officer Buczek,
who was also injured” (Til).
The next morning, with jury selection complete, Mr. Brownlee’s attorney
complained that he had still not received the photographs, which, he emphasized,
“are important in terms of the defense that we intend to present on
behalf of Mr. Brownlee, given that my understanding is that the
photographs do not — that there were no injuries other than a minor
scratch to the front of Mr. Short who is allegedly, now looking at the
Grand Jury testimony, being strangled with this seatbelt for almost three
minutes.”
(T 227.) Counsel agreed with the court’s characterization of why these photos would
be helpful to the defense: “So, they depict the injury and your interpretation is they
depict lack of injury?” (T 227).
Defense counsel next asserted that medical records pertaining to Brandon
Short, turned over six days earlier, constituted Brady material:
“And on top of that, included in the Rosario material, Your Honor, was
the first medical record that I received for Mr. Short which verifies that
same thing. So, I’m not even going to be able to present that medically
7

due to the late disclosure of that Brady material. I didn’t have time to
subpoena the person who reviewed this person, evaluated him . . . .
Those are in that packet of Rosario material that [the prosecutor] and I
talked about. That’s not Rosario. That was Brady material, and that was
supposed to be turned over a year ago.”
(T 228.) Counsel further alleged that information contained in the prosecution’s
Rosario production—“that Officer Buczek has claimed a disability, almost a
permanent disability as a result of all of these injuries and not just his hand”
(T 229)—was Brady material because “[t]he addition of these injuries not previously
claimed” created a
“motive to lie and motive to fabricate, especially when you look at the
way Officer Buczek threw these additional injuries in for the first time
in the Grand Jury testimony, again which I received for the first time
yesterday. So, there are numerous Brady violations here, Your Honor.
There is injuries that are alleged outside the scope of the Bill of
Particulars, and our ability to present a defense is now hurt because of
our inability to follow through with any of this information that could
be important to or crucial to the defense that we want to present on
behalf of Mr. Brownlee.”
(T 229-230.)
The prosecutor first addressed the still-missing photographs. Her investigator
reported “that the original JPEG files have been deleted and that they are typically
)

only kept for approximately ninety days” (T 230). She disagreed that the loss of this
evidence “somehow infringes or impedes the defendant’s ability” to contest the
charges, because Brandon Short had stated “I did not receive any injuries to my
neck” in a supporting deposition; accordingly, she argued, “there was never any
8

allegation that he had injury to the neck,” and she did not “anticipate that Mr. Short
would testify to anything beyond what is in his deposition” (T 231). The court asked
her to be specific: “[Wjhich aspect of strangulation is he going to testify to?” (T 232)
“Loss of consciousness is what I anticipate,” she said, but she would not commit to
proceeding on that theory only: “If he testifies about physical injury, I anticipate it
will be along the lines of what is in the deposition, that there were no injuries to the
neck but he had back pain afterward” (T 232).
The prosecutor also justified her eve-of-trial disclosure of the photographs:
“[T]he People were made aware of the existence of that package and
those photographs the middle of last week by defense counsel. My
understanding is his client let him know that those occurred, and I
would submit that the People did not proceed in bad faith with regard
to that. We did not have knowledge of that. And, in fact, the defendant
had knowledge that those photographs were taken of him, as well. So,
we have turned over everything we have.”
(T 232.) Mr. Brownlee’s attorney argued in response that the prosecutor’s Brady
obligations were not defined by what was in her physical possession, but extended
to materials “in the control of any government agency” (T 233, 235-236). He
disagreed that Mr. Brownlee’s having been photographed while at Auburn
Correctional Facility excused the prosecution’s failure to preserve and disclose
photos of inmate Short: “He was only there for the ones they took of him. He was
not there for the ones of Mr. Short” (T 236). The remedy he sought for the Brady
violations was dismissal of the indictment (T 237).
9

1.

The court’s proposed remedy for the missing photographs

County Court’s first response to these Brady claims was to propose an
adverse-inference instruction as “a way to compromise” the destruction of the color
photographs (T 233). But it expressed uncertainty as to whether the photos were
“really necessarily Brady” (T 233-234). At first the court’s uncertainty was derived
J

from its inability to know for sure what the photos depicted: “Do we know the photos
don’t show an injury?” (T 233). Later, the court seemed to be willing to assume that
they did indeed depict the absence of injury,
“but it doesn’t necessarily follow that having the strap around his neck
is going to cause an injury. If it was placed in such a way that it was —
let’s say the edge of the strap was cutting into his neck. Let’s say it was
placed flush against his neck. Therefore, it is not necessarily an injury.
So, I think one doesn’t necessarily flow from the other. The fact that he
doesn’t have injuries doesn’t mean that the strap wasn’t around his
neck. So, it strikes me as if the argument is going to be made it is not
Brady. That’s where the argument is. It is not necessarily Brady because
you don’t know having the strap around his neck necessarily causes that
injury.”
(T 238-239.) The prosecutor did not make this argument herself, but the court did
adopt it as its ruling: “[I]t’s a close call but I will rule that the photographs aren’t
necessarily Brady because it doesn’t necessarily follow that having the strap around
his neck is going to cause the injury, although it is certainly an argument that could
have been made” (T 242).
Despite ruling that the photos were not Brady material, the court fashioned a
remedy for their spoliation, reasoning that “if it is not Brady it in the natural course
10

of discovery should have been turned over in a timely fashion” (T 242; see T 233
[court’s comment that it “can’t believe they aren’t preserved .... It was clear that a
crime had been committed, and they have to understand that they had a duty to
preserve those JPEG files”]). The court resolved to give an adverse-inference
instruction:
“In essence it would be that there were photographs taken and that the
People have not produced those photographs and you may draw an
inference favorable to the defendant or unfavorable to the People based
upon that missing information that may or may not have shown the
extent of the injury sustained as a result of the strap being around . . .
Mr. Short’s neck.”
(T 242-243.) The court instructed defense counsel to elicit testimony about the
photos from inmate Short, so that this instruction would make sense to the jury
(T 243-244). It also instructed the prosecutor to avoid eliciting testimony from Short
“about any aspect of a neck injury” (T 238), and to prevent Officer Buczek from
testifying that he sustained “permanent disability” or other injuries that the defense
had learned of for the first time when his grand jury testimony was turned over as
Rosario material (T 241-242).
2.

The court’s proposed remedy for the late-disclosed medical
records.

At this point in the discussion, County Court had ruled that the missing
photographs were not Brady material, but had not made a determination about the
medical records. Mr. Brownlee’s attorney continued to object that the proposed
11

remedies were inadequate in light of how the defense was hampered by the late
disclosure of those records, and the court ordered an additional remedy:
Mr. Vitale: [ ] it is not only the lack of, you know, swelling or anything
on the neck but, you know, they did a full exam of Mr.
Short, and in those medical records which I got last week
it shows that he had full range of motion. It appears to me
as if there is no petechial hemorrhaging, nothing in the
eyes. Again there is not a lot of other factors that would be
consistent with the defense Mr. Brownlee wants to
present, which is that this individual was not strangled to
the point he was unconscious.
The Court: You can ask him all that.
Mr. Vitale: I don’t believe that Mr. Short is going to even understand
what petechial hemorrhaging is if I ask him that or even
the the [s/c] significance of that or lack of that, especially
when it comes to something like this. The diagnosis was
that he was alert and oriented, which would go to the lack
— which is consistent with the fact that oxygen was
flowing to the brain which is inconsistent.
The Court: The records will come into evidence so you can refer to
the records.
Mr. Vitale: I can’t get them into evidence because they are not
certified, and I haven’t been able to — and because of the
late disclosure I haven’t been able to subpoena anybody to
testify as to those records.
The Court: Well, would there be any - you can move to have those
received in evidence and I can make that ruling and you
can object, but I can rule that those records come in. Either
that or I grant a continuance to issue a subpoena and get
the records in pursuant to 45.18,1 think, of the CPLR, I
know that. So, I will rule that those records come in. So,
you can cross-examine him in a manner you feel is going
to be understood by him and we will go from there.
12

Mr. Vitale: Sure.
(T 244-245.) The court did not expressly rule that the medical records were Brady
material or that their late disclosure constituted a Brady violation.
3.

The photographs are located; defense counsel declines the remedy
offered for the late-disclosed records.

The parties delivered opening statements and the first prosecution witness,
Officer Buczek, was questioned and excused. Officer Samson, the driver of the van,
was the second witness. After Samson’s direct testimony had been completed but
before defense counsel had cross-examined her, the color photographs of Short and
Mr. Brownlee, presumed destroyed, were delivered to the courtroom; the prosecutor
was “not aware of exactly where they came from” (T 316). Defense counsel agreed
to cross-examine Samson first, then examine the photos over the lunch break, and
he declined an offer to have Buczek recalled to the stand (T 317-318). After lunch,
the court asked defense counsel whether there was “anything you wanted to bring to
my attention” after having reviewed the photos, and counsel demurred (T 326).
Brandon Short was the third and final prosecution witness. On crossexamination, defense counsel showed him four photographs, which were received
in evidence without objection (A 72-79); Short agreed that they were taken at
Auburn, shortly after the incident on the Thruway, and that they depict “a scratch on
the front of [his] lower neck” but no marks, bruising, swelling, or bloodshot eyes
(T 348-351). Defense counsel also elicited testimony from Short about his physical
13

condition after the incident, without referencing the medical records or offering them
in evidence (T 338-341). The only impairment Short claimed was “difficulty
walking,” which he experienced because Mr. Brownlee “lifted me up off the seat
and he injured my back” (T 340-341).
The jury acquitted Mr. Brownlee of both crimes charged in the indictment,
but convicted him of criminal obstruction of breathing or blood circulation (Penal
Law § 121.11 [a]), a lesser included offense of strangulation in the second degree.
After receiving the verdict, County Court promptly sentenced Mr. Brownlee to a
year of jail time, the maximum term authorized, which he had already served in
custody awaiting trial.

14

ARGUMENT
Point I:

The Prosecution Violated Its Brady Obligations by Failing to Turn
Over Medical Records Describing the Absence of Injury to
Brandon Short Until Shortly Before Trial.

Brady v Maryland (373 US 83 [1963]) holds “that the suppression by the
prosecution of evidence favorable to an accused upon request violates due process
where the evidence is material either to guilt or to punishment, irrespective of the
good faith or bad faith of the prosecution” (id. at 87). “To establish a Brady violation,
a defendant must show that (1) the evidence is favorable to the defendant because it
is either exculpatory or impeaching in nature; (2) the evidence was suppressed by
the prosecution; and (3) prejudice arose because the suppressed evidence was
material” (People v Fuentes, 12 NY3d 259, 263 [2009], habeas corpus granted sub
nom. Fuentes v Griffin, 829 F3d 233 [2d Cir 2016]; Strickler v Greene, 527 US 263,
281-282 [1999]).
The application of this law to the facts presented here is straightforward.
(1) Medical records describing the absence of injury to Brandon Short were
favorable to the defense, both directly and as impeachment material. (2) The records
were suppressed by the prosecution because they were not turned over until it was
too late for defense counsel to effectively use them by securing the trial testimony
of their author. (3) Mr. Brownlee was prejudiced by the untimely disclosure of the
medical records, because there is at least a reasonable possibility that the jury, which
15

found him not guilty of both felony charges, would have voted a complete acquittal
if his attorney had been able to call a medical witness to highlight the inconsistency
between the absence of injury described in the records and Brandon Short’s
allegation that he was choked into unconsciousness for several minutes.
It would be impossible to fairly recount the parties’ contentions and the trial
court’s rulings on Mr. Brownlee’s Brady claims without reference to the
photographs of Brandon Short, believed to be destroyed but finally obtained and
turned over midway through trial. County Court’s only explicit ruling on whether
any Brady violation was committed at all pertained to the photos, not the medical
records. This brief has accordingly described the course of events pertaining to the
photos, and the argument that follows also addresses the court’s Brady ruling on the
photos for explanatory purposes.
To be clear, however, Mr. Brownlee is not asserting on this appeal that the
mid-trial disclosure of the photographs constituted a Brady violation for which
reversal is required. While the prosecution certainly had a duty under Brady to obtain
and disclose them far earlier than it did, defense counsel’s ability to use them in
cross-examining Short dispelled the prejudice caused by their near-suppression, and
so the third prong of the test is not satisfied. Mr. Brownlee’s appellate argument is
that the late disclosure of the medical records, only, constituted a Brady violation
that prejudiced the defense and requires reversal of his conviction.
16

This brief first explains why the three components of a Brady violation are
satisfied, then addresses remedies—why the partial remedy contemplated by the trial
court for the records’ late disclosure was inadequate to protect Mr. Brownlee’s due
process rights; why reversal of his conviction, at a minimum, is required; and why
the indictment should be dismissed as well.
A.

The Records Were Favorable to.the Defense.
“Evidence is favorable to the accused if it either tends to show that the accused

is not guilty or if it impeaches a government witness” (People v Garrett, 23 NY3d
878, 886 [2014] [quotation omitted]). “[T]he favorable tendency of impeachment
evidence should be assessed without regard to the weight of the evidence as a
whole,” and “impeachment evidence may be considered favorable to [a] defendant
even if it is not material to the defendant’s case” (id. [quotations omitted]).
The medical records at issue here were favorable to Mr. Brownlee because
they documented the absence of injury to Brandon Short immediately after he
claimed to have been strangled. It does not matter, contrary to the prosecutor’s
argument below, that Short denied sustaining any injury to his neck in a supporting
deposition (T 231). Any reasonable person, shown a photograph taken a few hours
after its subject claimed to have been “strangled with [a] seatbelt for almost three
minutes” to the point that he became unconscious (T 227), would expect to see
visible signs of injury to the neck. Similarly, it would be reasonable to expect a
17

1

<»

medical evaluation performed in the immediate aftermath of such a serious assault
to document its effects—an argument defense counsel made with specific medical
examples (T 244-245).
County Court, in ruling that the photographs were not Brady material,
;

speculated that “the edge of the [seatbelt] strap” could have been “placed flush
against [Short’s] neck” in such a way that no visible marks would have been made
(T 238-239). Even assuming this reasoning to be sound, it proves only that the
photos were something less than irrefutable evidence of innocence, which is not the
standard for determining whether a piece of evidence is favorable to the defendant.
If Mr. Brownlee was accused of murder by poisoning, and a toxicology exam
performed shortly after death revealed no evidence of any harmful substance, that
report would not necessarily exonerate him—the prosecution might still be able to
persuade a fact-finder that the victim was poisoned, even if their theory (like that of
a seatbelt strangulation that leaves no trace) would not satisfy Occam’s razor.* But
they could not seriously argue that the toxicology report would not have to be
disclosed as Brady material. The court’s ability to imagine a scenario in which the
photos would not conclusively establish Mr. Brownlee’s innocence does not displace
their favorable character.

* “[T]he simplest of competing theories should often be preferred” (United
States v Santana-Dones, 920 F3d 70, 83 [1st Cir 2019]).
18

w.

Short’s medical records are favorable to the defense because, as counsel
argued, they “verif[y] that same thing” (T 228)—the absence of signs of injury one
would expect the medical examination of a recently strangled person to reveal. The
specific report in question, defense counsel claimed, “shows that he had full range
of motion” and “no petechial hemorrhaging, nothing in the eyes” (T 244). “Having
failed to dispute” this characterization of the report, “the People have impliedly
conceded” its accuracy {People v Wright, 86 NY2d 591, 596 [1995]). And it would
be more than reasonable for a fact-finder to conclude, from the absence of these
indicia of injury, that Short was not strangled at all. Indeed, this Court has described
similarly absent evidence as “compelling proof’ that a defendant, convicted of
falsely reporting an assault involving strangulation, “was not attacked as he had
claimed” {People v Barto, 144 AD3d 1641, 1642 [4th Dept 2016] [“although
defendant claimed to have been strangled with a ligature for approximately 30
seconds, there were no ligature marks on his neck and no petechial hemorrhage,
which, according to the People’s expert, one would expect to see on a person who
had been attacked in that manner”]; accord People v Oddone, 22 NY3d 369, 374377 [2013]).

;<

!'!

B.

The Records Were Suppressed.
The defendant’s right to discover, and the prosecution’s duty to disclose,

extends to all favorable evidence that is “within the prosecution’s custody,
i

19

possession, or control” (Garrett, 23 NY3d at 886)—and “[w]hat constitutes
‘possession or control’ for Brady purposes ‘has not been interpreted narrowly’ ” (id.
at 886-887, quoting People v Santorelli, 95 NY2d 412, 421 [2000]). The Court of
Appeals, like the Supreme Court, has imposed on “the individual prosecutor” “a duty
to learn of any favorable evidence known to the others acting on the government’s
behalf in the case, including the police” (Garrett, 23 NY3d at 887, quoting Kyles v
Whitley, 514 US 419, 437 [1995]). “[W]hen police and other government agents
investigate or provide information with the goal of prosecuting a defendant, they act
as ‘an arm of the prosecution,’ and the knowledge they gather may reasonably be
imputed to the prosecutor under Brady” (Garrett, 23 NY3d at 887, 888). The “ ‘duty
to learn’ . . . has generally been held to include information that directly relates to
the prosecution or investigation of the defendant’s case” (id. [collecting examples]).
The trial prosecutor in this case demonstrated that she was not aware of these
principles. On the first day of trial, she told County Court that “the People were made
aware of the existence” of the disputed evidence “the middle of last week by defense
counsel” (T 231-232). In other words, she took the position that even after she had
turned over voluminous discovery to the defense, less than one week before trial and
ten months after indictment, she—and by extension “the People”—were not
chargeable with knowledge of the contents of what she had produced until Mr.
Brownlee’s attorney called her attention to it (T 10 [“(T)he material that was
20

provided to counsel Wednesday of last week was all, to the best of my knowledge,
Rosario material except for these photographs which, as he indicated, were not in
any of the original police packages. So, I did not know they existed until the middle
of last week.”]).
Garrett, Kyles, and other federal and New York cases make clear that this is
no defense to a Brady claim. “[R]eliance... on the trial prosecutor’s lack of personal
knowledge ... is unavailing” (Wright, 86NY2d at 598), because “negligent, as well
as deliberate, nondisclosure may deny due process” (id., quoting People v Simmons,
36 NY2d 126, 132 [1975]). The no-personal-knowledge argument is especially
misplaced here because the prosecutor affirmatively represented that she could and
would arrange access, upon request, to “photographs” and “other evidence ... in the
custody of the arresting or investigating agency” (A 55). If the photos, or indeed the
medical report, had in fact been destroyed, Mr. Brownlee could persuasively have
argued that the prosecution “prejudiced [his] ability to obtain the evidence before
trial by misrepresenting that it had been preserved and would be available to him”
(People v Bryce, 88 NY2d 124, 129 [1996]; see id. at 130 [rejecting prosecution’s
counter-argument that “defendant’s inability to obtain the evidence was caused by
his own delay”]). And it is irrelevant whether defense counsel availed himself of the
opportunity to review discovery in the prosecutor’s office, because “the People
unquestionably have a duty to disclose exculpatory material in their control” (People
21

v Brown, 67 NY2d 555, 559 [1986]), and that duty it is not satisfied merely by
inviting defense counsel to try to find Brady material for himself within even a small
file.

Nor can the prosecution defend their failure to timely produce this favorable
evidence on the ground that “they themselves could not obtain” it from federal or
out-of-state agencies or officials (cf Santorelli, 95 NY2d at 422)—after all, they did
in fact obtain it. And whereas there was at least some explanation for why the
photographs were not turned over until trial was underway, the prosecutor never
claimed, and there is no reason to believe, that the medical report describing the
absence of injury to Brandon Short was held back from her by police investigators.
She failed to turn it over as Brady material because she was unaware that it was
favorable to the defense, and further unaware that it was her duty to learn that it was.
Finally, the records were suppressed for Brady purposes despite their
disclosure several days prior to trial. Defense counsel persuasively explained why
the late disclosure would prejudice his client: it was too late to arrange for the
report’s author or another expert witness to testify at trial, and Short himself did not
have the necessary basis of knowledge for counsel to establish through him, for
instance, “what petechial hemorrhaging is” and whether one would expect to see it
in a person who had recently been strangled to the point of unconsciousness for
several minutes (T 228, 244-245).
22

In these circumstances, it cannot be said that Mr. Brownlee “[was] given a
meaningful opportunity to use the allegedly exculpatory material to cross-examine
the People’s witnesses or as evidence during his case” (People v Cortijo, 70 NY2d
868, 870 [1987]; cf. e.g. People v Hines, 132 AD3d 1385, 1385 [4th Dept 2015]).
To hold that the records were not suppressed, on the theory that a hastily-prepared
cross-examination of Short himself was all that was necessary to obtain their benefit,
would unfairly minimize the ability of a zealous and capable defense counsel to
present his or her own case. The proper analysis requires consideration of how
valuable the records might have become if Mr. Brownlee’s attorney had been
provided the opportunity “to develop this line of defense further by obtaining in time
for trial a [medical] opinion that was obtainable only after the belated discovery of
the withheld” records (Fuentes v Griffin, 829 F3d 233, 252 [2d Cir 2016]).
C.

There Is a Reasonable Possibility That Mr. Brownlee Would Have Won
a Complete Acquittal If the Records Had Been Turned Over in Time for
His Attorney to Make Effective Use of Them.
The last of the three “essential components of a Brady violation” is that

“prejudice must have ensued” from the suppression of favorable evidence (Strickler,
527 US at 280, 282). The prejudice component is also known as “materiality”:
“prejudice arose because the suppressed evidence was material” {Fuentes, 12 NY3d
at 263 [paraphrasing Strickler’s third prong]). “In New York, where a defendant
makes a specific request for a document, the materiality element is established
23

provided there exists a ‘reasonable possibility’ that it would have changed the result
of the proceedings” (Garrett, 23 NY3d at 891-892, quoting Fuentes, 12 NY3d at
263).
Although New York courts refer almost uniformly to “Brady material” and
“Brady violations,” the New York Constitution’s protection of the defendant’s due
process right to disclosure of favorable evidence is not coterminous with that of the
federal Constitution. The Supreme Court has held that the federal Due Process
Clause mandates reversal of a conviction due to a Brady violation only if the
defendant can show a “reasonable probability” of a different verdict—one
“sufficient to undermine confidence in the outcome”—and that this standard is
appropriate in (or at least “sufficiently flexible to cover”) all cases, regardless
whether the defendant made a specific request for the Brady material at issue, a
general request for all material to which he was entitled under Brady, or no request
at all {UnitedStates v Bagley, 473 US 667, 681-682 [1985]).
The Court of Appeals, however, has declined to adopt Bagley as a matter of
state constitutional law, reasoning that “[w]here the defense itself has provided
specific notice of its interest in particular material, heightened rather than lessened
prosecutorial care is appropriate” {People v Vilardi, 76 NY2d 67, 77 [1990]).
Applying a “reasonable possibility” standard in specific-request cases “encourages
compliance” by prosecutors with their Brady obligations, while “a backward24

looking, outcome-oriented standard of review that gives dispositive weight to the
strength of the People’s case clearly provides diminished incentive for the
prosecutor, in first responding to discovery requests, thoroughly to review files for
exculpatory material, or to err on the side of disclosure where exculpatory value is
debatable” (id.).
The facts of this case suggest that the prosecutor’s incentive to properly
identify and turn over Brady material was not felt as strongly as it should have been.
Fortunately, application of the “reasonable possibility” standard compels a reversal
that ought to underline the importance of heeding the Vilardi Court’s warnings in
future cases: “[Suppression, or even negligent failure to disclose, is more serious in
the face of a specific request in its potential to undermine the fairness of the trial”
(76 NY2d at 77). Mr. Brownlee is entitled to the more favorable standard because
his pre-trial motions specifically requested disclosure of any photographs “relating
to” the incident or “used or made during the course of the investigation,” as well as
“[a]ny and all documents ... detailing, in any fashion, the results of any physical or
mental examination of the defendant... or any prospective witness” (A 24-25, 29;
see People v Scott, 88 NY2d 888, 891 [1996] [“That the defense did not know the
precise form of the document does not alter the fact that the request provided
particularized notice of the information sought.”]).
The jury’s verdict—which acquitted Mr. Brownlee of the assault charge based
25

on his struggle with Officer Buczek, as well as the felony strangulation charge
shows that this was a very close case. Buczek, Samson, and Short all testified that
Short was strangled into unconsciousness, but the jury rejected that testimony when
it convicted Mr. Brownlee only of a lesser included offense that requires no degree
of injury or impairment at all. This verdict “implies that it did not wholly believe or
disbelieve” any of the People’s witnesses {People v Hunter, 11 NY3d 1, 4 [2008]).
The Court of Appeals in Hunter, evaluating the proof in a mixed-verdict case,
concluded that the suppressed Brady material “would have added a little more doubt
to the jury’s view of the complainant’s allegations,” and that, even under the more
demanding standard, it was “reasonably probable that a little more doubt would have
been enough” {id. at 6).
The same is true here. The jury declined to credit the testimony of all three
witnesses that Short lost consciousness. If it had also heard testimony from the
person who evaluated Short that day, or another competent medical expert, about the
indicia of injury that should have been, but were not, present, there is at least a
reasonable possibility that its skepticism of the degree of injury would have extended
just slightly further, to skepticism that Mr. Brownlee placed a seatbelt around Short’s
neck for any length of time {see Fuentes, 829 F3d at 249-252).
D.

The Conviction Should Be Reversed and the Indictment Dismissed.
When the prosecution’s failure to disclose material to which the defense is
26

entitled, under Brady or by statute, is discovered before a verdict has been rendered,
“[i]t is for the trial court, in the exercise of its discretion, to choose a remedy”
{People v Williams, 7 NY3d 15, 19 [2006]), and the trial court’s decision “is not to
be disturbed unless it is determined that there has been an abuse of that discretion”
{People v Jenkins, 98 NY2d 280, 284 [2002]). The “reasonable possibility” and
“reasonable probability” standards, on the other hand, govern the determination by
an appellate or post-conviction court whether reversal of a conviction already
obtained is required to remedy a Brady violation.
Here, the trial court ruled that the photographs depicting the absence of injury
to Brandon Short were not Brady material, but it also announced that it would give
an adverse-inference instruction as a sanction for the photos’ (presumed) spoliation.
When they were discovered after proof had already begun, the plan for the adverseinference instruction seems to have been abandoned without comment or protestit would not, after all, have made any sense to the jury. As for Short’s medical
records, the trial court never made an express ruling whether they were Brady
material, but it did order a remedy: it promised defense counsel that it would admit
those records into evidence under the business records exception to the prohibition
against hearsay, notwithstanding counsel’s observation that they were not
admissible as business records because they were not certified.
The trial court’s proposed remedy of admitting the medical report regardless
27

of evidentiary obstacles was not sufficient to overcome the prejudice to Mr.
Brownlee of its delayed disclosure. As defense counsel maintained from the outset,
the exculpatory value of that document was not intrinsic, but required work on his
part to be properly exploited. Only a qualified witness could provide testimony that
would impress the significance of the report’s findings upon the jury, and counsel
t

t:

had no realistic chance of securing that testimony at trial because the report was
withheld from him for so long. The fact that he declined the trial court’s offer to
admit the report into evidence is an indication not that Mr. Brownlee suffered no
prejudice, but that the remedy offered was of little value. Just as the prosecution “is
entitled to prove its case free from any defendant’s option to stipulate the evidence
away” (Old Chief v United States, 519 US 172, 189 [1997]), the defendant has a
right (of constitutional dimension, moreover) to present exculpatory and impeaching
evidence in the manner his counsel deems most likely to sway a jury. “[T]he offering
party’s need for evidentiary richness and narrative integrity in presenting a case” (id.
at 183) cannot be displaced by a court’s instruction to present it some other way, so
as to more conveniently remedy a problem of the opposing party’s creation.
But this Court need not determine whether the trial court’s choice of remedies
for discovery (or possibly, combined discovery and Brady) violations was an abuse
of discretion, because it can more accurately perform the “necessarily fact-specific”
task of evaluating the impact of the disputed evidence on the course of proceedings
28

with “the benefit of a full trial record” (.People v Cardwell, 78 NY2d 996,998 [ 1991 ]
[quotation omitted] [explaining why appellate courts should embrace, not reject, the
benefit of hindsight in determining whether a defendant was prejudiced by the denial
of a motion for severance]). Mr. Brownlee contends that application of the threeprong Brady test compels the conclusion that a Brady violation occurred, and if the
Court agrees on all three points—that evidence that was both favorable and material
was suppressed—it has no discretion to order a remedy short of reversal.
The Court should, however, exercise its discretion to order a further remedy:
that the indictment be dismissed as well. Dismissal is appropriate here because Mr.
Brownlee has already served the maximum jail sentence that could be imposed for
conviction of criminal obstruction of breathing or blood circulation, a misdemeanor,
which is all that remains of the indictment after the jury’s acquittals (see e.g. People
v Dreyden, 15 NY3d 100, 104 [2010] [ordering reversal of conviction for criminal
possession of a weapon in the fourth degree and dismissing accusatory instrument
“since defendant has already served his sentence”]).

29

i

s

CONCLUSION

i.'i.

X

The judgment of conviction should be reversed and the indictment dismissed.

!
i

Dated:

July 2019

Respectfully submitted,

BENJAMIN L. NELSON
Assistant Public Defender
TIMOTHY P. DONAHER
Monroe County Public Defender
Attorney for Defendant-Appellant
10 North Fitzhugh Street
Rochester, New York 14614
(585) 753-4069
benjaminnelson@monroecounty.gov

Printing Specifications Statement (22 NYCRR § 1250.8 [j])
This brief was prepared on a computer using Microsoft Word. The typeface
is 14-point Times New Roman, double-spaced (except for headings, footnotes, and
block quotations). It contains 7,220 words, exclusive of those portions omitted from
counting by 22 NYCRR § 1250.8 (f) (2).

30

CONCLUSION

“The*
ol1 Ccm/LGAion Sn^ iL
cLc(5fic55^j
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

<?0?£2>

P-e\KT5<cl <M/l fiie

